No.

IN THE SUPREME COURT OF THE UNITED STATES

JAMES A. GIDEON,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

PROOF OF SERVICE OF PETITION FOR CERTIORARI

I, Dennis C. Belli, being an attorney duly admitted to practice before this Court,
hereby certify that the original Petition for a Writ of Certiorari was sent by Priority U.S. mail,
postage prepaid, to the Clerk of the Supreme Court, 1 First St. N.E., Washington, D.C. 205430001; that one copy of the petition was served on Anthony M. DiPietro, Deputy Law
Director, City of Lima, Ohio, Counsel for Respondent State of Ohio, 202 E. High St., Fl. 2,
Lima, OH 45801-4420 by Priority U.S., postage prepaid, this 29th day of May, 2021; and that
all parties required to be served have been served.

s/Dennis C. Belli
DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

